<html>
<title> - FREEDOM OF EXPRESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                         FREEDOM OF EXPRESSION

=======================================================================

                               REPRINTED

                                from the

                           2008 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 31, 2008

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                  U.S. GOVERNMENT PRINTING OFFICE
45-831                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                     Senate

SANDER LEVIN, Michigan, Chairman     BYRON DORGAN, North Dakota, Co-
MARCY KAPTUR, Ohio                   Chairman
TOM UDALL, New Mexico                MAX BAUCUS, Montana
MICHAEL M. HONDA, California         CARL LEVIN, Michigan
TIMOTHY J. WALZ, Minnesota           DIANNE FEINSTEIN, California
CHRISTOPHER H. SMITH, New Jersey     SHERROD BROWN, Ohio
EDWARD R. ROYCE, California          CHUCK HAGEL, Nebraska
DONALD A. MANZULLO, Illinois         SAM BROWNBACK, Kansas
JOSEPH R. PITTS, Pennsylvania        GORDON H. SMITH, Oregon
                                     MEL MARTINEZ, Florida           
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor
              CHRISTOPHER PADILLA, Department of Commerce
                   DAVID KRAMER, Department of State

                      Douglas Grob, Staff Director

             Charlotte Oldham-Moore, Deputy Staff Director
                         Freedom of Expression

                                Findings

        <bullet> The Chinese government and Communist Party 
        continued to deny Chinese citizens the ability to fully 
        exercise their rights to free expression.
        <bullet> The government and Party's efforts to project 
        a ``positive'' image before and during the 2008 Beijing 
        Summer Olympic Games were accompanied by increases in 
        the frequency and extent of official violations of the 
        right to free expression.
        <bullet> Official censorship and manipulation of the 
        press and Internet for political purposes intensified 
        in connection with both Tibetan protests that began in 
        March 2008 and the Olympics.
        <bullet>  Chinese officials failed to fully implement 
        legal provisions granting press freedom to foreign 
        reporters in accordance with agreements made as a 
        condition of hosting the Olympics, and which the 
        International Olympic Committee requires of all Olympic 
        host cities.
        <bullet> The government and Party continued to deny 
        Chinese citizens the ability to speak to journalists 
        without fear of intimidation or reprisal.
        <bullet> Officials continued to use vague laws to 
        punish journalists, writers, rights advocates, 
        publishers, and others for peacefully exercising their 
        right to free expression. Those who criticized China in 
        the context of the Olympics were targeted more 
        intensely. Restraints on publishing remained in place.
        <bullet> Authorities responsible for implementing a new 
        national 
        regulation on open government information retained 
        broad discretion on the release of government 
        information. Open government information measures 
        enabled officials to promote images of openness, and 
        quickly to provide official versions of events, while 
        officials maintained the ability at the same time to 
        censor unauthorized accounts.

                            Recommendations

        <all> Support Federal funding for the study of press 
        and Internet censorship methods, practices, and 
        capacities in China. Promote programs that offer 
        Chinese citizens access to human rights-related and 
        other information currently unavailable to them. 
        Sponsor programs that disseminate through radio, 
        television, or the Internet Chinese-language ``how-to'' 
        information and programming on the use by citizens of 
        open government information provisions on the books.
        <all> Support the development of ``how-to'' materials 
        for U.S. citizens, companies, and organizations in 
        China on the use of the Regulations on Open Government 
        Information and other records-access provisions in 
        Chinese central and local-level laws and regulations. 
        Support development of materials that provide guidance 
        to U.S. companies in China on how the Chinese 
        government may require them to support restrictions on 
        freedom of expression and best practices to minimize or 
        avoid such risks.
        <all> In official correspondence with Chinese 
        counterparts, include statements calling for the 
        release of political prisoners named in this report who 
        have been punished for peaceful expression, including: 
        Yang Chunlin (land rights activist sentenced to five 
        years' imprisonment in March 2008 after organizing a 
        ``We Want Human Rights, Not Olympics'' petition); Yang 
        Maodong (legal activist and writer whose pen name is 
        Guo Feixiong, sentenced to five years' imprisonment in 
        November 2007 for unauthorized publishing); Lu Gengsong 
        (writer sentenced to four years' imprisonment in 
        February 2008 for his online criticism of the Chinese 
        government); and other prisoners included in this 
        report and in the Commission's Political Prisoner 
        Database.

                              INTRODUCTION

    Over the past year, the Chinese government and Communist 
Party continued to deny Chinese citizens the ability to fully 
exercise their rights to free expression. In its 2007 Annual 
Report, the Commission noted that China lacked a free press and 
that Chinese officials provided only limited government 
transparency, practiced pervasive censorship of the Internet 
and other electronic media, and placed prior restraints on a 
citizen's ability to freely publish.\1\ This past year, the 
Commission has observed little to no improvement on these 
issues. To the contrary, censorship and manipulation of the 
press and Internet for political purposes worsened due to major 
events, including Tibetan protests that began in March 2008 and 
China's hosting of the 2008 Beijing Summer Olympic Games. The 
Chinese government continued to impose prior restraints on the 
publication of printed and online material. Authorities 
continued to punish religious practitioners for publishing or 
distributing religious materials without government permission. 
[See Section II--Freedom of Religion--Controls Over Religious 
Publications.] Officials continued to use vague laws to punish 
journalists, writers, rights advocates, and others for 
peacefully exercising their right to free expression, 
particularly those who criticized the government or Party in 
the context of the Olympics. Officials also continued to 
restrict the freedom of expression of Uyghurs [see Section IV--
Xinjiang--Controls Over Free Expression in Xinjiang] and to 
harass foreign journalists, despite a pledge to grant them 
greater press freedom for the Olympics [see Section II--2008 
Beijing Summer Olympic Games--Commitment to Foreign 
Journalists].
    Over the past year, the government continued its gradual 
policy of increasing citizen access to government-held 
information. Officials, however, maintained broad discretion on 
the release of government information. Open government 
information measures 
enabled officials to promote images of openness, and quickly to 
provide official versions of events, while officials maintained 
the ability at the same time to censor unauthorized accounts.
    The spread of the Internet and cell phones as mediums for 
expression continued to pose a challenge to the Party, a trend 
noted in the Commission's 2007 Annual Report.\2\ Internet and 
cell phone use continues to grow. By the end of June 2008, the 
number of Internet and cell phone users in China had risen to 
253 million\3\ and 601 million,\4\ respectively, increases of 
56 percent and 20 percent over the previous year.\5\ As the 
Commission noted in its 2007 Annual Report, Chinese citizens 
used these technologies to raise public awareness and protest 
government policies,\6\ a trend that continued this past 
year.\7\ Officials, however, continued to punish citizens who 
used these technologies to organize protests or to share 
politically sensitive information.\8\

   CHINESE CITIZENS ENTITLED TO FREEDOM OF EXPRESSION, SPEECH, PRESS

    Article 19 of the International Covenant on Civil and 
Political Rights (ICCPR), which China has signed and committed 
to ratify, provides:

        ``1. Everyone shall have the right to hold opinions 
        without interference. 2. Everyone shall have the right 
        to freedom of expression; this right shall include 
        freedom to seek, receive and impart information and 
        ideas of all kinds, regardless of frontiers, either 
        orally, in writing or in print, in the form of art, or 
        through any other media of his choice.'' \9\

    The Universal Declaration of Human Rights includes a 
similar provision.\10\ Article 35 of China's Constitution 
states: ``Citizens of the People's Republic of China enjoy 
freedom of speech, of the press, of assembly, of association, 
of procession, and of demonstration.'' \11\
    International human rights standards allow for restrictions 
on freedom of expression under limited circumstances. Article 
19 of the ICCPR provides that such restrictions must be 
``provided by law'' and ``necessary'' for the ``respect of the 
rights or reputations of others,'' ``protection of national 
security or of public order (ordre public),'' or ``of public 
health or morals.'' \12\ Chinese officials say that their 
restrictions on freedom of expression are ``in accordance with 
law,'' \13\ and at times cite national security or public 
safety concerns.\14\ Chinese law, however, does not require 
officials to prove that their actions are ``necessary'' to 
protect ``national security'' or ``public order'' and only 
vaguely defines crimes of ``endangering national security'' or 
``disturbing public order,'' allowing officials broad 
discretion to punish peaceful activity.'' \15\

               GOVERNMENT'S LIMITED STEPS TOWARD OPENNESS

    Over the past year, the government continued its gradual 
policy of increasing citizen access to government-held 
information. Both President Hu Jintao and Premier Wen Jiabao 
issued statements endorsing greater government transparency, 
echoing similar calls in recent years.\16\ As noted in the 
Commission's 2007 Annual Report, the first national Regulations 
on Open Government Information (OGI regulation) went into 
effect in May 2008, giving citizens the right to request 
government information and calling on government agencies at 
all levels to proactively disclose ``vital'' information to the 
public in a timely manner.\17\ [See addendum at the end of this 
section for Commission analysis of the OGI regulation.] The 
government and Communist Party reportedly increased media 
access to the 17th Party Congress in October 2007 and the March 
2008 meetings of the Chinese People's Political Consultative 
Conference and National People's Congress (NPC), although 
official media appeared to exaggerate the actual 
improvement.\18\ In April 2008, the NPC Standing Committee 
announced that it would begin releasing draft laws to the 
public for review.\19\ The Standing Committee generally does 
not have the power to draft criminal and civil legislation, 
however, meaning such important laws are not covered by the new 
policy.\20\
    Systemic obstacles to obtaining information from the 
Chinese government have limited the impact of the OGI 
regulation. The Commission noted a few of these obstacles, such 
as China's state secrets laws and the lack of a free press, in 
its 2007 Annual Report.\21\ As noted in that report, the OGI 
regulation contains a state secrets exception giving officials 
broad discretion to withhold information.\22\ Since the 
regulation took effect, mainland Chinese and Hong Kong news 
organizations reported that some officials have been evasive or 
uncooperative when handling information requests and have cited 
the ``state secrets'' exception in refusing to disclose 
information.\23\ The central government issued an opinion in 
April 2008 imposing a purpose test on information requests, 
saying that officials could deny requests for information not 
related to the requesting party's ``production, livelihood and 
scientific and technological research.'' \24\ China's lack of 
an independent judiciary has further hindered effective 
implementation of the OGI regulation. Chinese courts have been 
reluctant to accept disclosure cases and had not ordered any 
government agencies to release information as of September 
2008.\25\
    With few checks on their power to withhold information, 
officials continued to keep critical information from the 
public. In September 2008, for example, officials in 
Shijiazhuang city, Hebei province, reportedly waited more than 
a month before informing provincial officials about complaints 
of contaminated milk, which resulted in at least four deaths 
and injuries to thousands of infants.\26\ An editor of the 
Southern Weekend, a Chinese newspaper with a reputation for 
more independent reporting, revealed on his blog that the paper 
had discovered cases of sick children in July but were unable 
to publish the stories because of censorship before the 2008 
Olympic Games.\27\ In the run-up to the Olympics in August, 
propaganda officials issued several directives to domestic 
journalists, one of which warned editors that ``all food safety 
issues . . . is off limits.'' \28\ After the milk scandal broke 
open, officials ordered journalists to follow the ``official'' 
line and banned commentaries and news features about the 
tainted milk products.\29\ At least one Chinese journalist 
publicly criticized this censorship and called for press 
freedom.\30\ [For more information on the government's handling 
of the milk crisis, see Section III--Commercial Rule of Law--
Food and Product Safety.]
    In some cases this past year, officials and the state-
controlled media provided information about politically 
sensitive events more quickly than they might have in the past, 
but such moves were not necessarily a sign of greater openness. 
As noted in a Newsweek article by Jonathan Ansfield, Xinhua's 
English news service reported an attack that killed at least 16 
policemen in the Xinjiang Uyghur Autonomous Region on August 4, 
2008, more than an hour before the Chinese version and little 
more than three hours after the event occurred.\31\ Ansfield 
notes, however, that Chinese journalists told him that this 
unusual speed was ``no fluke,'' but rather the result of a top 
Party propaganda official ordering journalists at central news 
organizations to take the initiative to report ``major sudden 
incidents'' in order to ``get the official scoop on events 
before overseas media do, particularly around the time of the 
Olympic Games.'' One journalist called it a ``form of 
progress'' as it allowed them to report sensitive news before 
receiving specific instructions from propaganda authorities, 
but it only applied to central media outlets like Xinhua, and 
journalists were aware that they must still toe the Party line 
and that not all stories could be covered this way.\32\
    In May 2008, foreign observers noted that Chinese officials 
responded to the devastating Sichuan earthquake with unusual 
openness.\33\ The more open response of China's media, however, 
was in part due to large numbers of domestic reporters defying 
an initial ban on traveling to the disaster areas and other 
factors beyond the government's control.\34\ Nevertheless, 
officials sought to take credit for the ``openness'' for 
propaganda purposes. A Xinhua article described the response as 
showing ``unprecedented transparency,'' gave credit to recent 
reforms including the OGI regulation, and noted the ``positive 
response from domestic and international observers alike,'' 
making no mention of the original ban on travel or subsequent 
orders by Party and government officials dictating how the 
media should cover the event.\35\ [For more information on 
Party and government censorship of the media following the May 
2008 Sichuan earthquake, see box titled Tibetan Protests, 
Sichuan Earthquake, Olympics below.]

CENSORSHIP OF THE MEDIA AND INTERNET SERVES THE PARTY AND GOVERNMENT'S 
                               INTERESTS

                   Censorship of Media and Publishing

    The Communist Party continues to control what journalists 
may write or broadcast. In a June 2008 speech, President and 
Party General Secretary Hu Jintao reiterated the Chinese 
media's subordinate role to the Party, telling journalists they 
must ``serve socialism'' and the Party.\36\ The Party's Central 
Propaganda Department (CPD) issues directives that Chinese 
journalists must follow. The directives do not meet the 
international human rights standard requirement that they be 
``prescribed by law'' since they are issued by a Party entity, 
rather than pursuant to legislation issued by one of the organs 
authorized to pass legislation under the PRC Legislation Law. 
Reporters have no legal recourse to challenge such 
restrictions. Those that cross the line are subject to firing 
or removal of content. In November 2007, the CPD ordered the 
dismissal of a journalist who wrote about a major railroad line 
built with substandard materials.\37\ In July 2008, officials 
pulled the Beijing News from stands after it published a photo 
of injured protesters at the 1989 Tiananmen Square 
demonstrations.\38\
    The Chinese government relies on prior restraints on 
publishing, including licensing and other regulatory 
requirements, to restrict free expression.\39\ Anyone wishing 
to publish a book, newspaper, or magazine, or to work legally 
as a journalist, must obtain a license from the government's 
press regulator. The Chinese government forbids private 
publishing of religious materials and restricts the production 
of religious publications to state-licensed enterprises. Such 
restrictions have a chilling effect, and officials use them as 
a pretext to punish free expression. Shi Weihan, owner of a 
Christian bookstore in Beijing, was detained in November 2007 
and accused of illegally printing and distributing religious 
literature.\40\ In June 2008, authorities detained Ha Jingbo 
and Jiang Ruoling, two middle school teachers from Dongfeng 
county in Jilin province, for distributing educational leaflets 
about Falun Gong.\41\ In November 2007, a court in Guangdong 
province sentenced legal activist and writer Yang Maodong (who 
uses the pen name Guo Feixiong) to five years' imprisonment for 
``illegal operation of a business,'' for using another book's 
publication number, the quantity of which the government 
limits, to publish his own book. Local officials were 
apparently angry at Guo's book, which concerned a political 
scandal.\42\
    In May 2008, new book publishing regulations went into 
effect. Similar to other publishing regulations in China, the 
new regulations require book publishers to ``insist on Marxism-
Leninism, Mao Zedong Thought'' and ``the correct guidance of 
public opinion,'' to have a government-approved sponsor and 
meet financial requirements, and to abide by the government's 
plans for the ``number, structure, and distribution'' of 
publishing units.\43\ Officials continued to target political 
and religious publications as part of an ongoing campaign to 
``clean up'' the publishing industry.\44\

------------------------------------------------------------------------
                           Internet Censorship
-------------------------------------------------------------------------
  The Chinese government and Communist Party continue to control the
 Internet through an effective and pervasive system that relies on
 government regulation and public officials and Internet companies
 monitoring and censoring online content. China's measures to control
 the Internet do not conform to international standards for freedom of
 expression because they not only address issues of public concern such
 as pornography, privacy protection, and spam, but also content
 officials deem politically unacceptable. China's top officials continue
 to signal that its control over the Internet is motivated by political
 concerns. In his June 2008 speech, President Hu Jintao reiterated the
 importance of co-opting the Internet as a ``forward position for
 disseminating socialist advanced culture.'' \45\
  All Web sites hosted in China must either be licensed by or registered
 with the government,\46\ and sites providing news content or audio and
 video services require additional license or registration.\47\

  <bullet> In September 2007, the Shanghai Daily reported that officials
   shut down 9,593 unregistered Web sites, in a move that occurred just
   before the 17th Party Congress in October.\48\
------------------------------------------------------------------------


------------------------------------------------------------------------
                     Internet Censorship--Continued
-------------------------------------------------------------------------
  <bullet> In May 2008, officials reportedly ordered a domestic human
   rights Web site to shut down for failing to have the proper
   license.\49\

  This past year, Chinese officials also targeted audio and video
 hosting Web sites, whose content is increasingly popular but more
 difficult to censor, as well as online maps.

  <bullet> Provisions that went into effect in January 2008 reiterated
   the licensing requirement for audio and video Web sites and now
   require them to be state-owned or state-controlled.\50\
  <bullet> In March 2008, the State Administration of Radio, Film, and
   Television reported the results of a two-month crackdown, saying that
   it shut down 25 video Web sites and warned 32 others for, among other
   things, failing to have the proper license or ``endangering the
   security and interests of the state.'' \51\
  <bullet> Following the Tibetan protests that began in March, access to
   the U.S.-based video sharing Web site YouTube.com was reportedly
   blocked after dozens of videos about the protests showed up on the
   site.\52\ No footage of the protests was found on the Chinese-based
   video Web sites 56.com, Youku.com, and Tudou.com.\53\
  <bullet> In February 2008, the State Bureau of Surveying and Mapping
   issued an opinion telling online map providers that they must obtain
   the appropriate licenses and avoid ``geographical information that
   could harm national security.'' \54\
  <bullet> In April 2008, officials began a year-long campaign to remove
   ``illegal'' maps on the Internet, including those that commit
   ``errors'' such as identifying Taiwan as separate from China.\55\

  Officials continued to use their control over the connection between
 China and the global Internet to block access to politically sensitive
 foreign-based Web sites, while also policing domestic content.\56\ Over
 the past year, media reports and testing done by OpenNet Initiative
 indicated that access within China to the Web sites for foreign or Hong
 Kong news organizations such as Guardian, BBC, Deutsche Welle, Hong
 Kong-based Apple Daily, Radio Free Asia, and Voice of America, human
 rights organizations such as Amnesty International, Reporters Without
 Borders, Committee to Protect Journalists, Human Rights in China, and
 Human Rights Watch, and sites relating to Tibetans, Uyghurs, Taiwan,
 Chinese activists, and the 1989 Tiananmen democracy protests was
 blocked at various times.\57\ In response to foreign reporters'
 complaints over blocked Web sites, a Chinese Olympics official publicly
 acknowledged in late July 2008 that sites relating to Falun Gong were
 blocked and would remain blocked despite the Olympics. Following those
 complaints, foreign media reported that some previously blocked sites,
 including those for Amnesty International, Human Rights Watch, and
 Radio Free Asia, became accessible at the Olympic village.\58\ Domestic
 Web sites continued to be targeted as well. In the first half of 2008,
 officials reportedly ordered several HIV/AIDS Web sites to shut down or
 remove content.\59\ In addition, the Commission has received no
 indication that access to its Web site has become available in China.
------------------------------------------------------------------------


------------------------------------------------------------------------
                     Internet Censorship--Continued
-------------------------------------------------------------------------
  The government compels companies providing Internet services in China,
 including those based in other countries, to monitor and record the
 online activities of its customers, to filter and delete information
 the government considers ``harmful'' or politically sensitive, and to
 report suspicious activity to authorities.\60\ An October 2007 report
 on Chinese Internet censorship released by Reporters Without Borders
 and Chinese Human Rights Defenders and written by an unnamed Chinese
 employee of an Internet company said that there were between 400 and
 500 banned key words and that companies censored these words to avoid
 fines.\61\ Internet users in China frequently complain that censors
 remove their postings or prevent them from appearing at all.\62\
  Such censorship is particularly evident before or after events
 perceived by the Party to be politically sensitive. After Tibetan
 protests began in March 2008, foreign media reported that searches on
 the popular Chinese search engine Baidu and Google for news stories on
 Tibet turned up no protest news in the top results or inaccessible
 links.\63\ In April 2008, Chinese media reported that Baidu, Google,
 and Yahoo China were censoring searches that contained the word
 ``Carrefour,'' a French department store, amid public outcry over
 protests during the Paris leg of the Olympic torch relay.\64\ In the
 run-up to the Olympics, public officials across China ordered hotels to
 ensure that they had installed Internet security systems capable of
 monitoring and censoring users' Internet activities.\65\ In October
 2008, Information Warfare Monitor and ONI Asia issued a report
 detailing a large-scale surveillance system of Internet text messages
 sent by customers of Tom-Skype, a joint venture between a Chinese
 company and eBay, which owns Skype. They found that text messages
 relating to Falun Gong, Taiwan independence, the Chinese Communist
 Party, and words such as democracy, earthquake, and milk powder had
 been censored, and that customers' personal information, text messages,
 and chat conversations between users in China and outside China had
 been recorded.\66\ Skype's president said that the company was aware
 that the Chinese government was monitoring chat messages but not that
 its Chinese partner was storing those messages deemed politically
 sensitive.\67\
  The Communist Party also continued to directly order the removal of
 content or hire citizens to go online to influence public debate. In
 September 2008, Party propaganda officials ordered major financial Web
 sites to remove ``negative'' reports regarding China's stock markets
 amid a sharp downturn.\68\ According to one expert on Chinese media,
 the Party has funded training for an estimated 280,000 Web commentators
 whose task is to promote the Party's views in online chat rooms and
 forums, and to report ``dangerous'' content to authorities.\69\
  Rebecca Mackinnon, an expert on China's Internet controls, said in
 August 2008 that Internet users in China now faced a ``more targeted
 and subtle approach to censorship than before.'' \70\ She said blog
 postings about politically sensitive events were quickly taken down,
 while controlled reporting in Chinese media was allowed. She said the
 ``strategy seems clear: Give China's professional journalists a longer
 leash to cover breaking news even if it's not positive--since the news
 will come out anyway and unlike bloggers, the journalists are still on
 a leash.''
------------------------------------------------------------------------

           Restrictions Bolster Image of Party and Government

    The Chinese government and Communist Party continue to use 
the media and Internet to project an image of stability and 
harmony and ensure that the Party and central government are 
reflected positively. Such measures increase in the run-up to 
major political meetings and public events and following 
disasters and incidents of civil unrest or citizen activism. 
Three events this past year--Tibetan protests that began in 
March, the devastating Sichuan earthquake in May, and China's 
preparations for and hosting of the 2008 Olympic Games in 
August--illustrate the ways the Party and government restrict 
free expression in an attempt to manipulate public opinion in 
their favor.

------------------------------------------------------------------------
             Tibetan Protests, Sichuan Earthquake, Olympics
-------------------------------------------------------------------------
Tibetan Protests
  Chinese media initially devoted little coverage to a series of
 protests in Tibetan areas that began in March 2008.\71\ Web sites
 censored searches for news reports and footage of the protests, and
 some foreign Web sites and foreign satellite news telecasts about the
 protests were blocked.\72\ [See Censorship of the Media and Internet
 Serves the Party and Government's Interests--Internet Censorship
 earlier in this section.] When Chinese media stepped up reporting on
 the protests, they focused on violence committed against the ethnic Han
 population and denounced the Dalai Lama as a ``wolf with the face of a
 human and the heart of a beast.'' \73\ Chinese media also described
 U.S. Speaker of the House Nancy Pelosi as a ``disgusting figure'' and
 attacked the foreign media for its ``biased'' coverage.\74\ Officials
 expelled foreign journalists from Tibetan areas where reported protests
 had occurred and barred them from entering those areas, a move the head
 of the International Olympic Committee said contravened China's Olympic
 promise to provide greater press freedom to foreign journalists.\75\
 Cell phone, landline, and Internet transmissions were also reportedly
 disrupted in Tibetan areas of western China, adding to the difficulty
 of accessing information.\76\ [See Section V--Tibet for more
 information on the protests.]
Sichuan Earthquake

  Media access in the immediate aftermath of an 8.0 magnitude earthquake
 that hit Sichuan province on May 12, 2008, and killed nearly 70,000,
 was more open compared to previous natural disasters. Chinese
 television aired extensive and graphic live coverage from disaster
 areas and foreign reporters operated with few restrictions.\77\
 Propaganda officials, however, had initially ordered most journalists
 not to travel to disaster areas.\78\ After the order was ignored,
 public officials rescinded the original order, but instructed the
 domestic media to highlight the government's proactive response, avoid
 ``negative'' stories, and promote ``national unity'' and ``stability.''
 \79\ Officials later ordered domestic media not to report on protests
 by grieving parents, forcibly removed parents from protest sites, and
 briefly detained foreign reporters trying to cover the protests.\80\
------------------------------------------------------------------------


------------------------------------------------------------------------
        Tibetan Protests, Sichuan Earthquake, Olympics--Continued
-------------------------------------------------------------------------
Beijing Olympics

  In his June 2008 speech, President Hu Jintao told journalists to pay
 special attention to their coverage of the Olympics and said their
 first priority is to ``correctly guide opinion.'' \81\ In a January
 2008 speech to propaganda officials, Hu urged them to improve China's
 international image.\82\ From November 2007 to July 2008, propaganda
 officials issued several directives ordering journalists to avoid
 numerous topics for the Olympics, including air quality, food safety,
 protest zones designated for the games, and the performance of Chinese
 athletes.\83\ One directive ordered them to counter the ``negative''
 publicity stemming from protests along the Olympic torch relay by
 quickly producing reports that toed the Party line, as part of an
 ``unprecedented, ferocious media war against the biased western
 press.'' \84\ An ongoing campaign to weed out ``illegal publications''
 focused this past year on creating a ``positive public opinion
 environment'' for the Olympics.\85\
------------------------------------------------------------------------

 SELECTIVE USE OF LAWS TO PUNISH POLITICAL OPPONENTS AND HUMAN RIGHTS 
                               ACTIVISTS

    Officials continued to use vague laws to punish 
journalists, writers, rights advocates, and others for 
peacefully exercising their right to free expression, 
particularly those who criticized the Chinese government and 
Communist Party in the context of the Olympics. In 2006, the UN 
Working Group on Arbitrary Detention noted that China's vaguely 
defined crimes of endangering state security, splittism, 
subverting state power, and supplying state secrets left 
``their application open to abuse particularly of the rights to 
freedom of religion, speech, and assembly,'' and recommended 
the abolition of such ``political crimes.'' \86\ Among the most 
popular of these provisions to punish peaceful expression 
continued to be the ``inciting subversion of state power'' 
crime under Article 105(2) of the Criminal Law.\87\ Among those 
punished for this crime included outspoken health and 
environmental activist Hu Jia and land rights activist Yang 
Chunlin, after each tied their criticisms of the government and 
Party to the Olympics, and freelance writer Lu Gengsong, for 
his online essays. [See box titled Inciting Subversion: 
Punishment of Activists and Writers below.] Hu and Yang's 
arrests came despite claims by the Chinese foreign minister in 
February that it is ``impossible'' for someone in China to be 
arrested for saying ``human rights are more important than the 
Olympics.'' Officials targeted others for criticizing the 
government's response to the Sichuan earthquake. Sichuan 
officials detained retired professor Zeng Hongling in June 2008 
on charges of ``inciting subversion'' after she posted articles 
online alleging corruption and poor living conditions in areas 
affected by the earthquake.\88\

------------------------------------------------------------------------
        Inciting Subversion: Punishment of Activists and Writers
-------------------------------------------------------------------------
  Article 105(2) of the PRC Criminal Law reads in part: ``[w]hoever
 incites others by spreading rumors or slanders or any other means to
 subvert the State power or overthrow the socialist system shall be
 sentenced to fixed-term imprisonment of not more than five years'' \89\
Hu Jia\90\
Background: Well-known HIV/AIDS and environmental activist who for years
 has been an outspoken advocate for human rights and chronicler of
 rights abuses and who made extensive use of the Internet in his work.
 Hu had numerous run-ins with police, including spending more than 200
 days under virtual house arrest before his formal detention in December
 2007.\91\ A month before his January 2008 arrest, Hu provided testimony
 before the European Parliament and criticized China's human rights
 record and the Beijing Organizing Committee for the Games of the XXIX
 Olympiad.\92\
Sentence and Alleged Criminal Activity: On April 3, 2008, the Beijing
 No. 1 Intermediate People's Court sentenced Hu to three years and six
 months' imprisonment.\93\ Alleged ``subversive'' activities included
 posting essays online critical of the government's harassment of rights
 defenders and approach to governing Hong Kong, and making
 ``subversive'' comments to foreign reporters.

Yang Chunlin\94\
Background: Land rights activist who gathered more than 10,000
 signatures for a petition titled ``We Want Human Rights, Not the
 Olympics,'' which was also posted on the Internet. Most of the
 signatories were farmers seeking redress for land that officials
 allegedly took from them. Fellow petition organizers Yu Changwu and
 Wang Guilin were sentenced to reeducation through labor for two years
 and one-and-a-half years, respectively, for their advocacy on behalf of
 farmers in Fujin city, Heilongjiang province.\95\
Sentence and Alleged Criminal Activity: On March 24, 2008, the Jiamusi
 Intermediate People's Court in Heilongjiang sentenced Yang to five
 years' imprisonment for inciting subversion. Prosecutors accused Yang
 of writing essays critical of the Communist Party and alleged that the
 petition received heavy foreign media coverage that harmed China's
 image abroad. Prosecutors also accused Yang of accepting 10,000 yuan
 (US$1,430) from a ``hostile'' foreign group.\96\

Lu Gengsong\97\
Background: Freelance writer who has written about corrupt local
 officials who seize land in deals with property developers.\98\
Sentence and Alleged Criminal Activity: On February 5, 2008, the
 Hangzhou Intermediate People's Court affirmed Lu's four-year sentence.
 Alleged ``subversive'' activities included publishing on foreign Web
 sites essays that questioned the legitimacy of the Party-led government
 and called on activists, intellectuals, and religious activists to join
 together in opposition. The court made no attempt to determine the
 actual threat posed by the essays, none of which specifically called
 for violence.\99\
------------------------------------------------------------------------

    Officials also relied on vague charges of disturbing public 
order, inciting a disturbance, possessing state secrets, or 
inciting splittism, to punish free expression. Officials in 
Hubei province sentenced petitioner Wang Guilan to 15 months' 
reeducation through labor for disturbing social order after she 
spoke with a foreign reporter during the Olympics.\100\ In June 
2008, officials in Sichuan province detained and later 
sentenced Liu Shaokun, a middle school teacher, to one year of 
reeducation through labor after he posted photos of collapsed 
schools online and criticized their construction in a media 
interview.\101\ In another earthquake-related case, Sichuan 
officials arrested Huang Qi in July after he posted an article 
on his Web site detailing parents' demands for compensation and 
an investigation into the collapse of schools that took their 
children's lives.\102\ Officials charged Huang, founder of the 
rights advocacy Web site 64tianwang.com, with illegally 
possessing state secrets.\103\ In another state secrets case, 
officials released Hong Kong journalist Ching Cheong in 
February 2008, after he served almost two years of a five-year 
sentence.\104\ Ching was convicted of passing state secrets to 
a Taiwan foundation in a case that critics said lacked 
transparency and relied on weak evidence.\105\ Officials in 
Chengdu city, Sichuan province, detained freelance writer and 
journalist Chen Daojun in May 2008 on charges of inciting 
splittism,\106\ a crime under Article 103 of the Criminal 
Law,\107\ after he published an article on a foreign Web site 
calling for a halt in construction of a chemical plant, citing 
environmental concerns.\108\
    In its 2007 Annual Report, the Commission noted that 
Chinese officials' application of Article 25 of the Public 
Security Administration Punishment Law,\109\ which prohibits 
spreading rumors to 
disturb public order, threatened the free flow of 
information.\110\ Officials continued to apply this provision 
broadly to detain citizens for sharing information following 
emergencies\111\ or for organizing protests over the 
Internet.\112\ After a train collision in Shandong province, 
officials sentenced one citizen to five days of administrative 
detention for posting another person's Internet message, which 
contained what turned out to be inaccurate claims about the 
collision, even though few people viewed the post.\113\ 
Following a May 2008 protest against a chemical plant in 
Chengdu, officials put three activists under administrative 
detention pursuant to Article 25 for using the Internet to 
spread rumors and incite an illegal demonstration.\114\ In May, 
a top editor at Southern Metropolitan Daily wrote an editorial 
criticizing the Chinese public security's application of 
``spreading rumors'' provisions, saying it had a chilling 
effect on people's willingness to share information during 
public emergencies such as the Sichuan earthquake.\115\
    Officials also restricted individuals' freedom of 
expression by placing conditions on their release on bail or 
suspended sentence. Officials in the Guangxi Zhuang Autonomous 
Region accused Internet essayist Wang Dejia of ``inciting 
subversion,'' and released him on bail in January 2008, only 
after he agreed to stop posting online essays critical of the 
Chinese government and speaking with foreign journalists.\116\ 
Officials in Hubei province detained essayist Du Daobin in July 
for allegedly violating the terms of his suspended sentence by 
publishing articles overseas, days before his sentence was to 
expire.\117\

   HARASSMENT AND INTIMIDATION OF CITIZENS TO PREVENT FREE EXPRESSION

    Officials continued to harass citizens and warn them not to 
express opinions, particularly to foreign journalists and 
dignitaries. Plainclothes officers seized legal activist and 
law professor Teng Biao outside his home in Beijing in February 
2008, placed a sack over his head, and drove him away to be 
questioned.\118\ They warned him to stop writing articles 
criticizing China's human rights record and the Olympics or 
risk losing his university post and going to jail.\119\ In May, 
security personnel warned Zeng Jinyan, rights activist and wife 
of imprisoned human rights activist Hu Jia, that she would be 
prevented from leaving her home because ``a U.S. delegation 
wants to meet with you,'' referring to U.S. officials who had 
traveled to Beijing for the U.S.-China Human Rights 
Dialogue.\120\ Officials warned two human rights lawyers, Mo 
Shaoping and Zhang Xingshui, not to attend a May 27 lunch with 
Assistant Secretary of State David Kramer, who was taking part 
in the dialogue.\121\ In late June, officials detained or put 
under house arrest a group of human rights lawyers to prevent 
them from attending a dinner in Beijing with U.S. 
Representatives Chris Smith and Frank Wolf.\122\

  CHINESE GOVERNMENT ASSERTS THAT RESTRICTIONS ON FREE EXPRESSION ARE 
                              BASED IN LAW

    Officials continued to justify restrictions on freedom of 
expression with an appeal to laws, without regard to whether 
such laws or their application violate international human 
rights standards:

------------------------------------------------------------------------
                                             International Human Rights
              Official Claim                          Standards
------------------------------------------------------------------------
Internet Censorship: In April 2008, after   The government's Internet
 the International Olympic Committee         regulations prohibit
 expressed concern about Internet            content such as
 censorship following the Tibetan            pornography, online
 protests, a Ministry of Foreign Affairs     gambling, invasions of
 spokesperson said the Chinese               privacy, and intellectual
 government's regulation of the Internet     property violations.\124\
 is ``in line with general international     Such regulations, however,
 practice'' and ``the main reason for        also allow Chinese
 inaccessibility of foreign websites in      officials to censor
 China is that they spread information       politically sensitive
 prohibited by Chinese law.'' \123\          content through provisions
                                             that prohibit information
                                             vaguely defined as
                                             ``harmful to the honor or
                                             interests of the nation''
                                             or ``disrupting the
                                             solidarity of peoples.''
                                             \125\ The result is that
                                             the government continues to
                                             block access to a number of
                                             foreign news Web sites and
                                             Web sites promoting human
                                             rights and, along with
                                             Internet companies in
                                             China, frequently removes
                                             and censors political
                                             content.
------------------------------------------------------------------------


------------------------------------------------------------------------
                                            International Human Rights
             Official Claim                    Standards--Continued
------------------------------------------------------------------------
Imprisonment of Critics: In March 2008,
 Premier Wen Jiabao described as
 ``totally unfounded'' the allegation
 that the government is cracking down
 on dissidents before the Olympics. He
 said ``China is a country under the
 rule of law'' and that cases such as
 Hu Jia's would be ``dealt with in
 accordance with the law.'' \126\
                                         The UN Working Group on

Travel Restrictions on Foreign           The travel ban to Tibetan areas
 Reporters: In March 2008, a foreign      appeared much broader than
 ministry spokesperson defended a         necessary to protect  foreign
 travel ban to Tibetan areas following    journalists. The borders of
 reported protests as a measure           the closed-off areas extended
 intended to ensure the safety of         far beyond reported protest
 journalists and added ``it is legal      sites.\129\ The government's
 and responsible for local governments    attempts to otherwise censor
 to take some restrictive measures.''     and manipulate information
 \128\                                    about the protests on the
                                          Internet and in Chinese media
                                          strongly suggest that the near
                                          total ban on foreign
                                          journalists except for a few
                                          unsupervised tours was
                                          motivated by political rather
                                          than safety concerns.
                                          Furthermore, officials
                                          initially allowed foreign
                                          journalists open access to
                                          disaster zones following the
                                          May 2008 Sichuan earthquake,
                                          areas that also posed a threat
                                          to the physical safety of the
                                          journalists.
------------------------------------------------------------------------

        CHINESE CITIZENS CONTINUE TO SEEK FREEDOM OF EXPRESSION

    Citizens continue to seek ways to freely express their 
ideas and share information over the Internet and in the press. 
So many Chinese journalists rushed to the disaster areas 
following the May 2008 Sichuan earthquake that propaganda 
officials rescinded an earlier prohibition on such travel.\130\ 
Despite restrictions on reporting the controversy surrounding 
the collapse of shoddily constructed schools, investigative 
journalists at Southern Weekend and Caijing continued to report 
the story.\131\ Chinese citizens organized demonstrations 
against a chemical plant in Chengdu in May and against the 
proposed extension of the maglev train line in Shanghai using 
text messages.\132\ [For more information on these protests, 
see Section II--Environment.] Dozens of Chinese lawyers, 
academics, and writers signed an open letter condemning the 
arrest of human rights activist Hu Jia.\133\ In June 2008, 
Radio Free Asia reported that dozens of rights lawyers and 
scholars had begun an online free speech forum.\134\
    Citizens and some Chinese media and editorialists continue 
to question government measures that restrict freedom of 
expression.\135\ A January 2008 Southern Metropolitan Daily 
editorial criticized the regulations calling for state 
ownership of audio and video hosting Web sites as ``restraining 
the civil right of social expression in the era of the 
Internet.'' \136\ At the trial of land rights activist Yang 
Chunlin, defense lawyers argued that Chinese officials' 
application of the inciting subversion provision was likely to 
result in punishing free speech because of its vagueness and 
that neither the Supreme People's Court nor the National 
People's Congress Standing Committee had interpreted the law to 
provide guidance to citizens on the boundaries of free 
speech.\137\ More than 14,000 Chinese citizens signed an open 
letter released to the public on January 1, 2008, urging the 
Chinese government to ratify the International Covenant on 
Civil and Political Rights before the 2008 Olympic Games 
``without reservations.'' \138\ One of the letter's 
recommendations called on the Chinese government to allow 
freedom of speech and to protect the press and publishing.

                                Addendum


CHINA COMMITS TO ``OPEN GOVERNMENT INFORMATION'' (OGI) EFFECTIVE MAY 1, 
                                  2008

    In a move intended to combat corruption, increase public 
oversight and participation in government, and allow citizens 
access to government-held information, the State Council on 
April 5, 2007, issued the first national Regulations on Open 
Government Information (OGI Regulation), which took effect May 
1, 2008.\139\ Implementation begins at a time when the need for 
greater transparency in the areas of environmental health, land 
disputes, disease, and food, drug, and product safety has 
become apparent. The time lag between issue and effective date 
provided citizens and government departments a one-year 
preparatory period.
    The national regulation may alter relations between 
citizens and traditionally protective government bureaucracies. 
But it is not entirely a new development. While the overall 
impact of the national regulation remains unclear, over 30 
provincial and city-level governments throughout China as well 
as central government agencies and departments have adopted OGI 
rules in the last several years. Guangzhou, which was the first 
municipality to do so in 2002, and Shanghai, which issued its 
regulations in 2004, are but two examples. As implementation of 
the national OGI Regulation proceeds, a number of issues merit 
attention, the following among them:

                        Two Main Features of OGI

    Government agencies at all levels have an affirmative 
obligation to disclose certain information, generally within 20 
business days. This includes information that ``involves the 
vital interests of citizens,'' with emphasis on information 
relating to, among other items, environmental protection, 
public health, food, drug, and product quality, sudden 
emergencies, and land appropriation and compensation.
    Citizens, legal persons, and other organizations 
(Requesting Parties) may request information and are entitled 
to receive a reply within 15 business days and no later than 30 
business days. Requesting Parties can challenge a denial of 
access to information by filing a report with a higher-level or 
supervisory agency or designated open government information 
department or by applying for administrative reconsideration or 
filing an administrative lawsuit.

                  Areas To Watch During Implementation

    No clear presumption of disclosure. Premier Wen Jiabao 
urged officials to proceed with implementation ``insisting that 
disclosure be the principle, non-disclosure the exception.'' 
Chinese scholars and international experts, however, note that 
the national OGI Regulation does not set forth a clear 
presumption of disclosure. On this point it differs from 
earlier local-level OGI regulations and similar measures in 
other countries.
    Certain provisions may discourage officials from disclosing 
information. Under the OGI Regulation, officials who withhold 
information the disclosure of which is required under the 
Regulation may face both administrative and criminal penalties. 
At the same time, however, the OGI Regulation stipulates that 
officials must not disclose information involving ``state 
secrets, commercial secrets, or individual privacy,'' and must 
set up mechanisms to examine the secrecy of information 
requested. This emphasis on safeguarding secrecy and the 
breadth and vagueness of the definition of ``state secrets'' 
under Chinese law may encourage officials to err on the side of 
non-disclosure. The regulation also prohibits officials from 
disclosing information that might ``endanger state security, 
public security, economic security, and social stability.'' 
Agencies and personnel who fail to ``establish and perfect'' 
secrecy examination mechanisms or who disclose information 
later deemed exempt from disclosure under the OGI Regulation 
may face administrative or criminal punishment.
    Requesting Parties may be denied access if the request 
fails to meet a recognized purpose. An opinion issued by the 
State Council General Office on April 29, 2008, states that 
officials may deny requests if the information has no relation 
to the Requesting Party's ``production, livelihood and 
scientific and technological research.'' This reflects language 
in Article 13 of the OGI Regulation that says Requesting 
Parties may request information ``based on the special needs of 
such matters as their own production, livelihood and scientific 
and technological research.'' This introduction of an apparent 
purpose test differs from earlier local-level OGI regulations 
and international practice. Furthermore, another provision in 
the OGI Regulation which sets forth the information to be 
included in a request, does not instruct the Requesting Party 
to indicate the purpose of the request.
    Requesting Parties lack an independent review channel to 
enforce the OGI. Some Chinese scholars have noted that the OGI 
Regulation's relief provisions constrain citizens from using 
the courts to challenge decisions that deny requests for 
information. Because China's courts are subordinate to the 
National People's Congress Standing Committee and the Communist 
Party, ``it can be anticipated that enforcement of emerging 
information rights in China, even with the adoption of the 
State Council OGI Regulations, will continue to face high 
hurdles within the existing court system.'' While it is still 
too early to tell, one scholar notes that it may be possible, 
however, to achieve some independent review of non-political 
cases through creation of tribunals or commissions designed to 
handle OGI cases.
    Sufficiency of funding, preparedness, and public awareness. 
For many departments, OGI implementation may amount to an 
unfunded mandate. Many agencies face resource constraints or 
rely on funding sources predisposed to favor non-disclosure. 
Local governments may not favor information disclosure that 
could negatively impact local business. Local environmental 
protection bureaus, for example, which are funded by local 
governments, may not receive funding adequate to implement OGI 
effectively. Already, a number of localities failed to meet a 
March 2008 deadline to make catalogues and guides intended to 
assist parties in requesting information available to the 
public. This resulted in part from inadequate funding and 
technical expertise. While the government has focused on 
training officials, it has been less active in raising public 
awareness.
    Access to information may not apply to media, whether 
foreign or domestic. The national OGI Regulation applies to 
``citizens, legal persons, and other organizations.'' This 
suggests its applicability to foreigners remains open to 
interpretation during implementation. It also remains unclear 
whether journalists in general may request access to 
information under the national regulation. Some Chinese experts 
argue that the regulation clearly applies to news 
organizations, which have the status of ``legal persons or 
other organizations,'' and journalists, who have the status of 
``citizens,'' although foreign journalists may not be covered 
because they are not citizens. Some local-level OGI regulations 
in existence prior to the national regulation made clear its 
applicability to foreigners. The Guangzhou regulation, for 
example, provides that foreigners, stateless persons, and 
foreign organizations have the same rights and obligations to 
request information, limited to the extent that the requesting 
party's country or region of origin imposes restrictions on 
government information access to Chinese citizens. It remains 
to be seen whether the national OGI Regulation will be 
implemented so as to trump local OGI rules that are broader in 
application or whether the national regulation will be 
interpreted in a similarly broad fashion.

                                Endnotes

    \1\ CECC, 2007 Annual Report, 10 October 07, 73, 74.
    \2\ Ibid., 85-87.
    \3\ China Internet Network Information Center (Online) [hereinafter 
CNNIC], ``CNNIC Releases the 22nd Statistical Report on the Internet 
Development in China,'' 31 July 08.
    \4\ Ministry of Industry and Information Technology (Online), 
``Nation's Cell Phone Users Breaks 600 Million, Telecommunications 
Industry Increases by 25.9%'' [Wo guo yidong dianhua yonghu tupo liuyi 
hu dianxin yewu zongliang tongbi zengzhang 25.9%], 23 July 08.
    \5\ In June 2007, the number of Internet users in China reached 162 
million. CNNIC, ``The 20th CNNIC Statistical Survey Report on the 
Internet Development in China,'' July 2007, 9. The change from 162 
million to 253 million is a 56 percent increase. In June 2007, the 
number of cell phone users in China was 501 million. Ministry of 
Industry and Information Technology (Online), ``June 2007 
Telecommunications Industry Statistics Monthly Report'' [2007 nian 6 
yue tongxin hangye tongji yuebao], 25 July 07. The change from 501 
million to 601 million is a 20 percent increase.
    \6\ CECC, 2007 Annual Report, 86.
    \7\ David Eimer, ``Mobile Dissent,'' South China Morning Post 
(Online), 14 May 08; Quentin Sommerville, ``Well-Heeled Protests Hit 
Shanghai,'' BBC (Online), 14 January 08.
    \8\ See, e.g., Chinese Human Rights Defenders (Online), ``Cyber 
Activists Detained for `Inciting' Anti-Pollution March in Chengdu,'' 12 
May 08; Zhang Dongfeng, ``Shandong Top Secret: Netizen Who Forwarded 
Inaccurate Post About Jiaoji Railway Train Collision Is Detained by 
Police'' [Shandong gaomi yi wangyou zhuanfa jiaoji tielu huoche 
xiangzhuang shishi tiezi bei jingfang juliu], Southern Metropolitan 
Daily (Online), 5 May 08.
    \9\ International Covenant on Civil and Political Rights, adopted 
by General Assembly resolution 2200A(XXI) of 16 December 66, entry into 
force 23 March 76, art. 19 [hereinafter ICCPR]. In March 2008, Premier 
Wen Jiabao reiterated China's commitment to ratify the ICCPR, saying 
``we are conducting inter-agency coordination to address the issue of 
compatibility between China's domestic laws and international law so as 
to ratify the Covenant as soon as possible.'' Ministry of Foreign 
Affairs (Online), ``Premier Wen Jiabao Answered Questions at Press 
Conference,'' 18 March 08.
    \10\ Universal Declaration of Human Rights, adopted and proclaimed 
by General Assembly resolution 217A(III) of 10 December 48, art. 19 
[hereinafter UDHR].
    \11\ PRC Constitution, art. 35. Article 51, however, states: ``The 
exercise by citizens of the People's Republic of China of their 
freedoms and rights may not infringe upon the interests of the state, 
of society and of the collective, or upon the lawful freedoms and 
rights of other citizens.'' PRC Constitution, art. 51.
    \12\ ICCPR, art. 19. Article 29 of the UDHR states the following: 
``everyone shall be subject only to such limitations as are determined 
by law solely for the purpose of securing due recognition and respect 
for the rights and freedoms of others and of meeting the just 
requirements of morality, public order and the general welfare in a 
democratic society.''
    \13\ See, e.g., Ministry of Foreign Affairs, ``Premier Wen Jiabao 
Answered Questions at Press Conference.''
    \14\ See, e.g., Ministry of Foreign Affairs (Online), ``Foreign 
Ministry Spokesperson Qin Gang's Regular Press Conference on March 25, 
2008,'' 26 March 08.
    \15\ Following its 2005 visit to China, the UN Working Group on 
Arbitrary Detention noted that the vague definition of crimes of 
endangering national security, splitting the state, subverting state 
power, and supplying state secrets ``leaves their application open to 
abuse particularly of the rights to freedom of religion, speech, and 
assembly.'' It recommended that political crimes ``that leave large 
discretion to law enforcement and prosecution authorities such as 
`endangering national security,' `subverting State power,' `undermining 
the unity of the country,' `supplying of State secrets to individuals 
abroad,' etc. should be abolished.'' Manfred Nowak, Report of the 
Special Rapporteur on Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, Mission to China, 10 March 06, para. 34, 
82(s). In a January 2008 report, Chinese Human Rights Defenders studied 
41 cases from 2000 to 2007 in which officials used the ``inciting 
subversion'' provision of the Criminal Law (Article 105(2)) to punish 
Chinese citizens for exercising their right to freedom of expression. 
It found that in such cases ``[t]he `evidence' often consists of no 
more than the writings of an individual or simply shows that he/she 
circulated certain articles containing dissenting views, without any 
effort to show that the expression had any potential or real subversive 
effect. That is to say, speech in and of itself is interpreted as 
constituting incitement of subversion. . . .'' Chinese Human Rights 
Defenders (Online), ``Inciting Subversion of State Power: A Legal Tool 
for Prosecuting Free Speech in China,'' 8 January 08.
    \16\ ``Analysis: PRC--Despite Claims, Limited Transparency Seen at 
`Two Sessions,' '' Open Source Center, 26 March 08 (Open Source Center, 
26 March 08); ``Full Text: Report on the Work of the Government,'' 
Xinhua (Online), 19 March 08; ``Full Text of Hu Jintao's Report at 17th 
Party Congress'' [Hu jintao zai dang de shiqi da shang de baogao], 
Xinhua (Online), 24 October 07.
    \17\ CECC, 2007 Annual Report, 75; ``China Commits to `Open 
Government Information' Effective May 1, 2008,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.
    \18\ ``Analysis: Limited Transparency Seen at `Two Sessions,' '' 
Open Source Center; ``CPC Promises Broader Information Access to Media 
During Crucial Congress,'' Xinhua (Online), 14 October 07.
    \19\ ``New Measures To Promote Scientific Issuance of Laws, 
Democratic Issuance of Laws'' [Tuijin kexue lifa, minzhu lifa de xin 
jucuo], Xinhua (Online), 19 April 08.
    \20\ PRC Legislation Law, enacted 15 March 00, art. 7.
    \21\ CECC, 2007 Annual Report, 73.
    \22\ Ibid., 75.
    \23\ David Bandurski, ``China Newsweekly: Government `Cold' on 
`Information Openness,' '' China Media Project (Online), 31 July 08; 
Han Yong, ``Open Information: Citizens' `Hot' and the Government's 
`Cold' Stand in Stark Contrast'' [Xinxi gongkai: gongmin ``re'' he 
zhengfu ``leng'' xingcheng xianming dui bi], China News.com, reprinted 
in Xinhua Baoye Net (Online), 22 July 08; Owen Fletcher, ``China's 
Transparency Is Just Thin Air,'' Asia Times (Online), 12 September 08.
    \24\ Opinions on Several Questions Regarding the People's Republic 
of China Regulations on Open Government Information [Zhonghua renmin 
gongheguo zhengfu xinxi gongkai tiaoli ruogan wenti de yijian], issued 
30 April 08, art. 14. This apparent purpose test differs from 
international practice. Jamie P. Horsley, ``China Adopts First 
Nationwide Open Government Information Regulations,'' Freedominfo.org 
(Online), 9 May 07.
    \25\ Fletcher, ``China's Transparency Is Just Thin Air.''
    \26\ Edward Wong, ``Mayor in China Fired in Milk Scandal,'' 18 
September 08.
    \27\ Jim Yardley and David Barboza, ``Despite Warnings, China's 
Regulators Failed to Stop Tainted Milk,'' New York Times (Online), 26 
September 08.
    \28\ ``Propaganda Officials Issue 21 Restrictions on Domestic 
Coverage of Olympics,'' Congressional-Executive Commission on China 
(Online), 22 August 08.
    \29\ Raymond Li, ``Censorship Hammer Comes Down Over Scandal,'' 
South China Morning Post (Online), 16 September 08.
    \30\ Xin Yu, ``Ling Cangzhou Writes Essay Criticizing Toxic Milk 
Powder Scandal and Calling for Press Freedom,'' Radio Free Asia 
(Online), 18 September 08.
    \31\ Jonathan Ansfield, ``Even the Propaganda Dept Wants Records 
Broken,'' Newsweek (Online), 4 August 08. For an English article from 
Xinhua on the day of the incident, see ``Police Station Raided in West 
China, Terrorists Suspected,'' Xinhua (Online), 4 August 08.
    \32\ Ansfield, ``Even Propaganda Dept Wants Records Broken.''
    \33\ See, e.g., Ching-Ching Ni, ``China Saw New Freedoms With TV 
Quake Coverage,'' Los Angeles Times (Online), 23 May 08.
    \34\ Howard W. French, ``Earthquake Opens Gap in Controls on 
Media,'' New York Times (Online), 18 May 08; ``China's Earthquake 
Coverage More Open But Not Uncensored,'' CECC China Human Rights and 
Rule of Law Update, June 2008, 2.
    \35\ Meng Na, Lu Chuanzhong, ``Gov't Transparency in Quake 
Relief.''
    \36\ ``Speech by Hu Jintao Delivered While Inspecting the Work of 
Renmin Ribao'' [Zai renmin ribao she kaocha gongzuo shi de jianghua], 
People's Daily (Online), 21 June 08.
    \37\ Edward Cody, ``Chinese Muckraking a High-Stakes Gamble,'' 
Washington Post (Online), 12 November 07.
    \38\ ``China Paper Censored for Breach,'' BBC (Online), 25 July 08.
    \39\ As noted in the Commission's 2006 Annual Report: ``The Chinese 
government imposes a strict licensing scheme on news and information 
media that includes oversight by government agencies with discretion to 
grant, deny, and rescind licenses based on political and economic 
criteria.'' CECC, 2006 Annual Report, 20 September 06, 25.
    \40\ See Section II--Freedom of Religion--Religious Prisoners and 
the CECC Political Prisoner Database for more information about Shi's 
case.
    \41\ See Section II--Freedom of Religion--Religious Prisoners and 
the CECC Political Prisoner Database for more information about these 
cases.
    \42\ ``Guo Feixiong Sentenced to Five Years for Illegal Business 
Operation,'' CECC China Human Rights and Rule of Law Update, January 
2008, 5.
    \43\ Provisions on the Administration of Book Publishing [Tushu 
chuban guanli guiding], issued 21 February 08, arts. 3, 9.
    \44\ See, e.g., ``Institutional Structure Has New Breakthrough, 
Great Achievement for 2007 `Anti-Pornography, Illegal Material' 
Campaign, Noticeable Change in Market Practices'' [Gongzuo jizhi qude 
xin tupo yanli chachu yi pi da'an yanan 2007 nian ``shaohuang dafei'' 
chengxiao xianzhe shichang mingxian gaiguan], Sweep Away Pornography 
and Strike Down Illegal Publications Task Force (Online), 14 January 
08.
    \45\ ``Speech by Hu Jintao While Inspecting Renmin Ribao,'' 
People's Daily.
    \46\ All commercial Web sites must obtain a government license. 
Measures for the Administration of Internet Information Services 
[Hulianwang xinxi fuwu guanli banfa], issued 20 September 00. All non-
commercial Web site operators must register. Registration 
Administration Measures for Non-Commercial Internet Information 
Services [Fei jingyingxing hulianwang xinxi fuwu bei'an guanli banfa], 
issued 28 January 05. Because the MII's registration system gives the 
government discretion to reject an application based on content (i.e., 
whether the Web site operator intends to post ``news,'' and if so, 
whether it is authorized to do so), it is qualitatively different from 
registration which all Web site operators must undertake with a domain 
registrar, and constitutes a de facto licensing scheme.
    \47\ Provisions on the Administration of Internet News Information 
Services [Hulianwang xinwen xinxi fuwu guanli guiding], issued 25 
September 05, arts. 5, 11, 12; Provisions on the Administration of 
Internet Video and Audio Programming Services [Hulianwang shiting jiemu 
fuwu guanli guiding], issued 20 December 07, art. 7.
    \48\ Lydia Chen, ``China Disconnects 18,400 Illegal Websites,'' 
Shanghai Daily (Online), 11 September 07.
    \49\ ``Mainland's `China Rights Defense' Shut Down'' [Dalu 
``weiquan zhongguo'' zao guanbi], Boxun (Online), 11 May 08.
    \50\ ``New Internet Regulations Tighten State Control Over Audio 
and Video Content,'' CECC China Human Rights and Rule of Law Update, 
March/April 2008, 3.
    \51\ Ibid.
    \52\ ``Censorship of Internet and Foreign News Broadcasts Following 
Tibetan Protests,'' CECC China Human Rights and Rule of Law Update, May 
2008, 2.
    \53\ Ibid.
    \54\ Opinion Regarding Strengthening Monitoring of Internet Maps 
and Geographic Information Services Web Sites [Guanyu jiaqiang 
hulianwang ditu he dili xinxi fuwu wangzhan jianguan de yijian], issued 
25 February 08, art. 5.
    \55\ ``Problem That Most Online Maps of China Involves Secrets and 
Other Problems Are Prominent, Eight Departments Administering'' 
[Dabufen wangshang zhongguo ditu shemi deng wenti tuchu ba bumen 
zhili], People's Daily (Online), 5 May 08.
    \56\ OpenNet Initiative (Online), ``Internet Filtering in China in 
2004-2005: A Country Study,'' 14 April 05; ``Censorship of Internet and 
Foreign News Broadcasts Following Tibetan Protests,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.
    \57\ Andrew Jacobs, ``Restrictions on Net Access in China Seem 
Relaxed,'' New York Times (Online), 1 August 08; ``Censorship of 
Internet and Foreign News Broadcasts Following Tibetan Protests,'' CECC 
China Human Rights and Rule of Law Update, May 2008, 2; OpenNet 
Initiative (Online), ``ONI Analysis of Internet Filtering During 
Beijing Olympic Games: Week 1,'' 19 August 08. OpenNet Initiative 
comprises researchers at the Citizen Lab at the Munk Centre for 
International Studies, University of Toronto, Berkman Center for 
Internet & Society at Harvard Law School, the Advanced Network Research 
Group at the Cambridge Security Programme, University of Cambridge, and 
the Oxford Internet Institute, Oxford University.
    \58\ ``The Human Toll of the Olympics,'' CECC China Human Rights 
and Rule of Law Update, August 2008, 2.
    \59\ ``China Continues to Crack Down on HIV/AIDS Web Sites and 
Activists,'' CECC China Human Rights and Rule of Law Update, June 2008, 
3.
    \60\ See, e.g., Provisions on the Administration of Internet News 
Information Services, arts. 19, 20, 21; ``Officials Order Hotels To 
Step Up Monitoring and Censorship of Internet,'' Congressional-
Executive Commission on China (Online), 1 August 08.
    \61\ Reporters Without Borders and China Human Rights Defenders 
(Online), Journey to the Heart of Internet Censorship, October 2007; 
``Censor's Grip Tightening on Internet in China,'' Reuters (Online), 10 
October 08.
    \62\ ``PRC Netizens on Major BBS Complain of Censorship,'' Open 
Source Center, 20 August 08 (Open Source Center, 20 August 08).
    \63\ ``Censorship of Internet and Foreign News Broadcasts Following 
Tibetan Protests,'' CECC China Human Rights and Rule of Law Update, May 
2008, 2.
    \64\ ``A Number of Search Engine Web Sites Screen `Carrefour' '' 
[Duojia wangluo sousuo yinqing pingbi ``jialefu''], Southern 
Metropolitan Daily (Online), 30 April 08.
    \65\ ``Officials Order Hotels To Step Up Monitoring and Censorship 
of Internet,'' Congressional-Executive Commission on China (Online), 1 
August 08.
    \66\ John Markoff, ``Surveillance of Skype Messages Found in 
China,'' New York Times (Online), 2 October 08; Nart Villeneuve, 
Information Warfare Monitor and ONI Asia (Online), Breaching Trust: An 
Analysis of Surveillance and Security Practices on China's Tom-Skype 
Platform, 1 October 08.
    \67\ Marguerite Reardon, ``Skype: We Didn't Know About Security 
Issues,'' CNet (Online), 3 October 08.
    \68\ Daniel Ren, ``Beijing Censors Financial Websites,'' South 
China Morning Post (Online), 10 September 08.
    \69\ David Bandurski, ``China's Guerrilla War for the Web,'' Far 
Eastern Economic Review (Online), July/August 2008.
    \70\ Rebecca MacKinnon, ``The Chinese Censorship Foreigners Don't 
See,'' Wall Street Journal (Online), 14 August 08.
    \71\ Loretta Chao, ``News of Protests Is Hard to Find In China--in 
Media or Online,'' Wall Street Journal (Online), 18 March 08.
    \72\ ``Censorship of Internet and Foreign News Broadcasts Following 
Tibetan Protests,'' CECC China Human Rights and Rule of Law Update, May 
2008, 2.
    \73\ Ibid.
    \74\ Ibid. See also, ``China's Propaganda on Tibet a Verbal Blast 
from the Past,'' Agence France-Presse (Online), 16 April 08; 
``Commentary: On Hypocricy of Pelosi's Double Standards,'' Xinhua 
(Online), 13 April 08.
    \75\ ``China Blocks Foreign Reporters From Covering Tibetan 
Protests,'' CECC China Human Rights and Rule of Law Update, May 2008, 
2-3; Maureen Fan, ``Olympic Chief Vows Free Speech Defense,'' 
Washington Post (Online), 11 April 08.
    \76\ ``Communication Disruptions in Tibetan Areas Impede Flow of 
Information,'' CECC China Human Rights and Rule of Law Update, June 
2008, 3.
    \77\ Andrew Jacobs, ``A Rescue in China, Uncensored,'' New York 
Times (Online), 14 May 08; Tini Tran, ``China Media Unusually 
Aggressive in Covering Quake,'' Associated Press (Online), 14 May 08; 
Nicholas Zamiska and Juliet Ye, ``Xinhua Goes Beyond Propaganda,'' Wall 
Street Journal (Online), 14 May 08.
    \78\ French, ``Earthquake Opens Gap in Controls on Media.''
    \79\ ``Central Propaganda Departments and Main News Media To Do 
Good Reporting on Anti-Earthquake Disaster Relief'' [Zhongyang 
xuanchuanbumen he zhuyao xinwen meiti zuohao kangzhen jiuzai baodao], 
Xinhua (Online), 14 May 08; ``Kong Yufang Demands News Media to 
Conscientiously Perform Reporting on Quake Aftermath and Relief 
Efforts'' [Kong yufang yaoqiu xinwen meiti zuohao kangzhen jiuzai 
baodao gongzuo], Xinhua (Online), 15 May 08; ``Li Changchun Visits, 
Salutes Journalists on Quake Resistance, Disaster Relief'' [Li 
changchun kanwang weiwen kangzhen jiuzai xinwen gongzuozhe], Xinhua 
(Online), 17 May 08; ``Liu Yunshan's Condolences and Instructions 
Regarding News Reporting Work on the Quake Relief Efforts'' [Liu 
yunshan guanyu kangzhen jiuzai xinwen baodao gongzuo de weiwen he 
zhishi], Sichuan Daily (Online), 15 May 08.
    \80\ Geoffrey York, ``Beijing Can't Muzzle Outrage over Deadly 
Collapsed Schools,'' Globe and Mail (Online), 16 June 08. Central 
officials have noted their concern about local officials denying access 
to certain areas and promised foreign reporters to ``resolve it.'' 
James Areddy, ``China Stifles Parents' Complaints About Collapsed 
Schools,'' Wall Street Journal (Online), 18 June 08.
    \81\ ``Speech by Hu Jintao While Inspecting Renmin Ribao,'' 
People's Daily.
    \82\ Christopher Bodeen, ``China Calls for Stepped-Up Propaganda,'' 
Associated Press (Online), 23 January 08; ``Hu Jintao's Speech Before 
National Propaganda and Ideological Work Meeting of Representatives'' 
[Hu jintao tong quanguo xuanchuan sixiang gongzuo huiyi daibiao 
zuotan], Xinhua (Online), 22 January 08.
    \83\ ``Central Propaganda Department Restricts Reporting on Air 
Quality, Food Safety,'' CECC China Human Rights and Rule of Law Update, 
January 2008, 3; ``Propaganda Officials Issue 21 Restrictions,'' 
Congressional-Executive Commission on China.
    \84\ Peter Simpson, ``Screws Tighten on Mainland Journalists,'' 
South China Morning Post (Online), 12 August 08.
    \85\ Sweep Away Pornography and Strike Down Illegal Publications 
Task Force (Online), ``Continue the Spirit of the Rescue Effort, For 
the Olympics Create a Wonderful Cultural Environment and Promote 
Positive Public Opinion'' [Dali fayang kangzhen jiuzai jingshen wei 
Beijing aoyunhui chenggong juban chuangzao lianghao shichang wenhua 
huanjing he yulun fenwei], 29 May 08.
    \86\ Manfred Nowak, Report of the Special Rapporteur on Torture, 
para. 34, 82(s).
    \87\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 105.
    \88\ Minnie Chan, ``Activist Held for Subversion After Accusing 
Officials of Graft,'' South China Morning Post (Online), 19 June 08.
    \89\ PRC Criminal Law, art. 105.
    \90\ ``Beijing Court Sentences Hu Jia to 3 Years 6 Months' 
Imprisonment,'' CECC China Human Rights and Rule of Law Update, March/
April 2008, 1.
    \91\ Dui Hua Human Rights Journal, ``Hu Jia Formally Arrested: 
Human Rights in Olympic Spotlight,'' 31 January 08.
    \92\ Ibid.
    \93\ ``CECC Translation: Hu Jia's Criminal Judgment,'' CECC China 
Human Rights and Rule of Law Update, June 2008, 2.
    \94\ ``Land Rights Activist Yang Chunlin Sentenced to Five Years,'' 
CECC China Human Rights and Rule of Law Update, March/April 2008, 1.
    \95\ Ibid.
    \96\ Ibid.
    \97\ ``Zhejiang Court Affirms Lu Gengsong Sentence; CECC 
Translation of Decision,'' CECC China Human Rights and Rule of Law 
Update, June 2008, 5.
    \98\ Evan Osnos, ``In China, Uncovering Crime Is Also One, As It 
Cracks Down on Corruption, Nation also Rounds Up a Writer Who Condemned 
the Offense,'' Chicago Tribune (Online), 30 January 08.
    \99\ ``Zhejiang Court Affirms Lu Gengsong Sentence; CECC 
Translation of Decision,'' CECC China Human Rights and Rule of Law 
Update, June 2008, 5.
    \100\ Chinese Human Rights Defenders (Online), ``Olympics Crackdown 
Continues as Another Activist is Sent to Labor Camp,'' 31 August 08.
    \101\ Human Rights in China (Online), ``Press Release: Family 
Visits Still Denied to Sichuan School Teacher Punished after Quake-Zone 
Visit,'' 29 July 08. In September 2008, Human Rights in China reported 
that Liu was released on September 24 and allowed to serve his sentence 
outside of the labor camp. Human Rights in China (Online), ``Sichuan 
Teacher, Liu Shaokun, Was Released To Serve His Reeducation-Through-
Labor Sentence Outside of Labor Camp,'' 26 September 08.
    \102\ Jake Hooker, ``Voice Seeking Answers for Parents About a 
School Collapse is Silenced,'' New York Times (Online), 11 July 08.
    \103\ Chinese Human Rights Defenders (Online), ``Human Rights 
Defender Huang Qi Formally Charged with Illegally Possessing State 
Secrets,'' 18 July 08.
    \104\ David Lague, ``China Frees Hong Kong Journalist,'' New York 
Times (Online), 6 February 08.
    \105\ ``Beijing Court Rejects Ching Cheong's Appeal, Affirms Five-
Year Sentence,'' CECC China Human Rights and Rule of Law Update, 
December 2006, 4-5.
    \106\ ``Chengdu Police Punish Those Using Internet To Spread Rumors 
About Sichuan Petrochemical Project'' [Chengdu jingfang chufa liyong 
Sichuan shihua xiangmu wangshang sanbu yaoyanzhe], Sichuan Daily 
(Online), 10 May 08; Chinese Human Rights Defenders, ``Cyber Activists 
Detained.''
    \107\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 103.
    \108\ Pen American Center (Online), ``Chen Daojun Detained as 
Crackdown Intensifies in China During Olympic Torch Relay,'' 12 May 08; 
Chen Daojun, ``Quickly Together, People of Chengdu Facing Extinction'' 
[Gankuai qilai, mianlin juezhong de chengde ren], China EWeekly 
(Online), 5 May 08.
    \109\ Article 25 of the Public Security Administration Punishment 
Law provides for detention of five to 10 days for, among other things, 
``spreading rumors; making false reports of dangerous conditions, 
epidemics, or police situations; or using other means to intentionally 
disturb public order.'' PRC Public Security Administration Punishment 
Law, enacted 28 August 05, art. 25.
    \110\ CECC, 2007 Annual Report, 76.
    \111\ ``Chongqing Police Detain Two for Spreading Rumors About 
Earthquake Disaster Conditions'' [Chongqing jingfang juliu liangming 
sanbuo dizhenqing yaoyan renyuan], Xinhua (Online), 14 May 08.
    \112\ ``Chengdu Police Punish Those Using Internet To Spread Rumors 
About Sichuan Petrochemical Project'' [Chengdu jingfang chufa liyong 
Sichuan shihua xiangmu wangshang sanbu yaoyanzhe], Sichuan Daily 
(Online), 10 May 08; Chinese Human Rights Defenders, ``Cyber Activists 
Detained.''
    \113\ Zhang Dongfeng, ``Shandong Top Secret.''
    \114\ ``Chengdu Police Punish Those Using Internet,'' Sichuan 
Daily; Chinese Human Rights Defenders, ``Cyber Activists Detained.''
    \115\ Chang Ping, ``When Encountering a Strong Shock, Please Make 
Allowances for the Masses' Demand for Information'' [Zaofeng qiangzhen, 
qing tiliang minzhong de xinxi keqiu], Southern Metropolitan Daily 
(Online), 13 May 08.
    \116\ ``Wang Dejia, Shi Weihan Released on Bail,'' CECC China Human 
Rights and Rule of Law Update, January 2008, 5.
    \117\ ``Dissident Jailed Ahead of Olympics,'' Radio Free Asia 
(Online), 22 July 08.
    \118\ ``Foreign Minister `Freedom of Speech' Comments At Odds With 
Arrests, Detentions,'' CECC China Human Rights and Rule of Law Update, 
March/April 2008, 2-3.
    \119\ Ibid. In September, Teng and Hu co-wrote a letter titled 
``The Real China Before the Olympics,'' which criticized Beijing for 
failing to live up to its promise to improve human rights for the 
Olympics.
    \120\ ``Harassment of Beijing-based Activists During the U.S.-China 
Human Rights Dialogue,'' CECC China Human Rights and Rule of Law 
Update, June 2008, 3.
    \121\ Ibid.
    \122\ Jill Drew and Edward Cody, ``Chinese Lawyers Arrested Before 
Meeting with Congressmen,'' Washington Post (Online), 1 July 08.
    \123\ Ministry of Foreign Affairs (Online), ``Foreign Ministry 
Spokesperson Jiang Yu's Regular Press Conference on April 1, 2008,'' 2 
April 08.
    \124\ See, e.g., Measures for the Administration of Internet 
Information Services, art. 15.
    \125\ Ibid.
    \126\ Ministry of Foreign Affairs, ``Premier Wen Jiabao Answered 
Questions at Press Conference.''
    \127\ ``Zhejiang Court Affirms Lu Gengsong Sentence; CECC 
Translation of Decision,'' CECC China Human Rights and Rule of Law 
Update, June 2008, 5.
    \128\ Ministry of Foreign Affairs, ``Spokesperson Qin Gang's Press 
Conference on March 25, 2008.''
    \129\ ``China Blocks Foreign Reporters From Covering Tibetan 
Protests,'' CECC China Human Rights and Rule of Law Update, May 2008, 
2-3.
    \130\ French, ``Earthquake Opens Gap in Controls on Media.''
    \131\ Yang Binbin, Zhao Hejuan, Li Zhigang, Chang Hongxiao, Zhang 
Yingguang, Chenzhong, Xiaolu, and Zhang Bolin, ``Why Did So Many 
Sichuan Schools Collapse? '' Caijing (Online), 17 June 08; York, 
``Beijing Can't Muzzle Outrage.''
    \132\ Eimer, ``Mobile Dissent''; Sommerville, ``Well-Heeled 
Protests Hit Shanghai.''
    \133\ Lindsay Beck, ``China Hits Back at Critics of Activists' 
Arrest,'' Reuters (Online), 8 January 08; ``Statement on the Criminal 
Detention of Hu Jia,'' Boxun (Online), 7 January 08. Also, six 
prominent activists and writers spoke candidly of the problems they 
faced in a July 6 interview with the Observer. Lijia Zhang, ``China's 
New Freedom Fighters,'' Observer (Online), 6 July 08.
    \134\ ``Tens of Beijing Rights Lawyers and Scholars Start Online 
Discussion on the Freedom of Speech'' [Shushiwei beijing weiquan lushi 
ji xuezhe zhaokai wanglu yanlun ziyou taolunhui], Radio Free Asia 
(Online), 23 June 08.
    \135\ See, e.g., ``Chinese Journalist Calls for Press Freedom on 
Release from Jail,'' Radio Free Asia (Online), 16 April 08. (New York 
Times researcher calls for greater press freedom upon release from 
three-year sentence.)
    \136\ ``Editorial: Cold Wind Blows On the Internet, Regulation 
Mistakenly Targets Competition'' [Shelun: lengfeng chuixiang wangluo 
jianguan mowu jingzheng], Southern Metropolitan Daily (Online), 4 
January 08.
    \137\ Chinese Human Rights Defenders (Online), ``Yang Chunlin 
Inciting Subversion of State Power Criminal Defense Pleading'' [Yang 
chunlin Shandong dianfu guojia zhengquan zui bianhu ci], 19 February 
08.
    \138\ ``Thousands of Chinese Citizens Call for Ratification of 
ICCPR Before Olympics,'' CECC China Human Rights and Rule of Law 
Update, February 2008, 3.
    \139\ Information in this addendum is drawn from ``China Commits to 
`Open Government Information' Effective May 1, 2008,'' CECC China Human 
Rights and Rule of Law Update, May 2008, 2.

                                 <all>

</pre></body></html>
